f 1967 f

Jtortlj Carolina
Court of Appeals
DANIEL M. HORNE JR., Clerk

Fax: (919) 831-3615
Web: https://www.nccourts.gov

Court of Appeals Building
One West Morgan Street
Raleigh, NC 27601
(919) 831-3600

Mailing Address:
P. O. Box 2779
Raleigh, NC 27602

No. P20-184
IN-RE: JAMES WILSON
PETITIONER
From Pender
( 00000000 )

ORDER
The following order was entered:
The petition filed in this cause on the 11th of March 2020 and designated 'Application for Writ of
Mandamus- Pursuant to the N.C.G.S. 7A-32(c)' is dismissed without prejudice.
By order of the Court this the 13th of March 2020.
The above order is therefore certified to the Clerk of the District Court, Pender County.
WITNESS my hand and the seal of the North Carolina Court of Appeals, this the 13th day of March
2020.

Daniel M. Horne Jr.
Clerk, North Carolina Court of Appeals

Copy to:
Attorney General, For State of North Carolina
Mr. James Wilson, For Wilson, James
Flon. Elizabeth Craver, Clerk of District Court

7

m

FIFTH DISTRICT

No. 148P20

upreme
IN RE:
JAMES WILSON
From N.C. Court of Appeals
( P20-184 )
From Pender
( 00000000 )

Upon consideration of the petition filed by Petitioner on the 26th of March 2020 in this matter for a writ of
certiorari to review the order of the North Carolina Court of Appeals, the following order was entered and is hereby
certified to the North Carolina Court of Appeals:
"Denied by order of the Court in conference, this the 29th of April 2020."
s/ Davis, J.
For the Court

WITNESS my hand and the seal of the Supreme Court of North Carolina, this the 6th day of May 2020.

Amy L. Funderburk
Clerk, Supreme Court of North Carolina
M. C. HackneyL^Assistant Clet¥, Supreme Court Of North Carolina
Copy to:
North Carolina Court of Appeals
Mr. Daniel P. O'Brien, Special Deputy Attorney General, For State of North Carolina - (By Email)
Mr. James Wilson, For Wilson, James
Mr. Ben R. David, District Attorney
Hon. Elizabeth Craver, Clerk
West Publishing - (By Email)
Lexis-Nexis - (By Email)

APP. 6>

7T

STATE OF NORTH CAROLINA

IN THE GENERAL COURT OF JUSTICE
SUPERIOR COURT DIVISION
FILE Jj£_CrS 12 CO - 5 j

COUNTY OF CATAWBA

STATE OF NORTH CAROLINA

)
)
)
)
)
)

v.

S M. W\LSdA/

ADMINISTRATIVE ORDER DENYING
DEFENDANT'S MOTION FOR
APPROPRIATE RELIEF

DEFENDANT.
THIS MATTER, which is a procedural determination as to whetter the defendant is entitled to an evidentiary
hearing on the Motion for Appropriate Relief filed with the Clerk on
£-J 0-15?______, came before the undersigned
Senior Resident Superior Court Judge pursuant to N.C.G.S. 15A-1413. After reviewing the motion and the record as required
by N.C.G.S. 15A-1413, 15A-1419 and 15A-1420, the Court finds:
H^he defendant entered

a plea of guilty and a review of the plea transcript, sentencing worksheet, and judgment reveal that
the judgment complies with the structured sentencing provisions of N.C.G:S. 15A.
H^the defendant received the benefit of the bargain that was negotiated with the state.
H^pon a previous motion made pursuant to Article 89 of N.C.G.S Chapter 15A, defendant was in a position to adequately
raise the grounds or issues underlying the present motion but did not do so.
(vf^the defendant has not demonstrated good cause for excusing the grounds for denial listed above and has not demonstrated
actual prejudice resulting from the defendant’s claim.
0//defendant has not demonstrated that failure to consider the present claim will result in a fundamental miscarriage of justice.
G2/at"!east some of the matters complained of by the defendant were matters that could and should have been raised prior to
the execution of the transcript of plea.

[yf'mp court has reviewed all of the defendant's contentions contained within his MAR and finds them to be wholly without merit.
M BASED upon the foregoing facts, the court CONCLUDES AS A MATTER OF LAW, that Defendant's MAR is without merit
and therefore should be denied and dismissed.
IT IS THEREFORE ORDERED:
Hd that the Motion for Appropriate Relief above referenced is hereby DENIED and DISMISSED.

/C

E An evidentiary hearing is not required. Defendant has no right to be present. It is not necessary for the State to file an
answer.
[B/tWs ruling on the defendant's present motion will act as a bar to any future motion raised with the same or similar issue(s).
ORDERED and forwarded to those named below on this, the l *7 day of A-UJjVisf~ ■ 2^? / $.

NATHANIEL J, POOVEY,
SENIOR RESIDENT SUPERIOR COURT JUDGE
JUDICIAL DISTRICT 25B, CATAWBA COUNTY
Forwarded to:
David Learner. District Attorney

•c/V\.

(/VIL-S t>Af

ftPP* h

* • i.r

>*

V
i 5 0^
File No.

STATE OF NORTH CAROLINA
In the General Court of Justice
Superior Court Division
CATAWBA
County

Film No.

STATE VERSUS
DEFENDANT

INDICTMENT
B/M
JAMES MAURICE WILSON
78 LEE ALLEN DRIVE
TAYLORSVILLE, NORTH CAROLINA 28681
Date of Offense on or about
10/06/2014

08/30/1970
HABITUAL FELON (9922)

Offense in Violation of G. S.
14-7.1

The jurors for the State upon their oath present that the defendant is a habitual felon in that:
1.

On or about October 21, 1994 the defendant did commit the felony of Breaking or Entering in violation ofN.C.G.S. § 14-54 and
that on or about June 01, 1995 the defendant was convicted of the felony of Breaking or Entering in the Superior Court of Lee
County, North Carolina, File Number 95 CRS 2105.

2.

On or about July 18, 1999 the defendant did commit the felony of Common Law Robbery in violation of common law and
N.C.G.S. § 14-87.1 and that on or about December 01, 1999 the defendant was convicted of the felony of Common Law Robbery in
the Superior Court of Lee County, North Carolina, File Number 99 CRS 50303.

3. vOn or about May 10, 2003 the defendant did commit the felony of Larceny in violation ofN.C.G.S. § 14-72(b) and that on or about
August 19, 2003 the defendant was convicted of the felony of Larceny in the Superior Court of Lee County, North Carolina, File
Number 03 CRS 52015.
4.

At the time the defendant committed at least two of these offenses, he was at least 18 years of age, against the form of the statute in
such case made and provided and against the peace and dignity of the State.

Signature of Prosecutor

WITNESSES
p^l M. L. ROLLINS,

HKYPD

□

M. A. CHAPMAN,

HKYPD

The witnesses marked "X" were sworn by the undersigned Foreman of the Grand Jury and, after hearing testimony, this bill
was found to be:
,y \

□
Date

TRUE BILL by twelve, or more grand jurors, and I the undersigned Foreman of the Grand Jury, attest the concurrence
of twelve or more grand jurors in this Bill of Indictment.
a

NOT A TRUE BILL

4^5

Signature of Grand Jury Foreman

Si

m

,"V

f

ftpp. e

14-8029

is'ctLsVasc*
J^iortf) Carolina Court of Appeals
No. COA17-917

FrorrPCatawba
( 15CRS51250-51 g

y'
i

STATE OF NORTH CAROLINA

i

v.

r

.it-*

—<
I

-o
—■ /

~o

r.vc

P
•o
f,o

JAMES MAURICE WILSON

f

■^J

JUDGMENT
This cause came on to be argued upon the transcript of the record from the Superior Court,
Catawba County. Upon consideration whereof, this Court is of the opinion that there is no error in the
record and proceedings of said trial tribunal.

*

It is therefore considered and adjudged by the Court here that the opinion of the Court, as delivered
by the Honorable Rick Elmore, Judge, be certified to the said trial tribunal to the intent that the
judgment is affirmed.
And it js considered and adjudged further, that the Defendant do pay the costs of the appeal in this
Court incurred, to wit, the sum of Seventeen and 75/100 dollars ($17.75), and execution issue therefor.
Certified to the Superior Court, Catawba County, this the 7th day of May 2018.

Daniel M. Horne Jr.
Clerk, North Carolina Court of Appeals

A TRUE COPY

